         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Quick Reaction Report




       Results of Technical Network
       Vulnerability Assessment:
       EPA’s Region 4
       Report No. 10-P-0213

       September 7, 2010
Report Contributors:   Rudolph M. Brevard
                       Charles Dade
                       Cheryl Reid
                       Michael Goode, Jr.
                       Vincent Campbell
                       U.S. Environmental Protection Agency 	                                              10-P-0213
                                                                                                    September 7, 2010
                       Office of Inspector General


                       At a Glance

                                                                           Catalyst for Improving the Environment


Why We Did This Review           Results of Technical Network Vulnerability
As part of the annual audit of
                                 Assessment: EPA’s Region 4
the U.S. Environmental
Protection Agency’s (EPA’s)       What We Found
compliance with the Federal
Information Security             Vulnerability testing of EPA’s Region 4 network conducted in June 2010
Management Act, the Office       identified Internet Protocol addresses with numerous high-risk and medium-risk
of Inspector General (OIG)       vulnerabilities. The OIG met with EPA information security personnel to discuss
conducted network                the findings. If not resolved, these vulnerabilities could expose EPA’s assets to
vulnerability testing of the     unauthorized access and potentially harm the Agency’s network.
Agency’s network devices in
EPA’s Region 4 building           What We Recommend
located in Atlanta, Georgia.
                                 We recommend that the Chief, Environmental Information Solutions Branch,
Background                       Office of Policy Management, Region 4:
Network vulnerability testing    •	 Provide the OIG a status update for all identified high-risk and medium-risk
was conducted to identify any       vulnerability findings contained in this report.
network risk vulnerabilities
and to present the results to    •	 Create plans of action and milestones in the Agency’s Automated Security
the appropriate EPA officials,      Self-Evaluation and Remediation Tracking system for all vulnerabilities that
who can then promptly               cannot be corrected within 30 days of this report.
remediate or document            •	 Perform a technical vulnerability assessment test of assigned network
planned actions to resolve the      resources within 60 days to confirm completion of remediation activities.
vulnerability.
                                 Due to the sensitive nature of the report’s technical findings, the attachment will
                                 not be available to the public.
For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100907-10-P-0213.pdf
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                              THE INSPECTOR GENERAL




                                               September 7, 2010

MEMORANDUM

SUBJECT:                   Results of Technical Network
                           Vulnerability Assessment: EPA’s Region 4
                           Report No. 10-P-0213


FROM:                      Arthur A. Elkins, Jr.
                           Inspector General

TO:                        Keith Mills
                           Chief, Environmental Information Solutions Branch
                           Office of Policy Management
                           Region 4


Attached is the final technical network vulnerability assessment report prepared by the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA).1 The site
assessment was conducted in conjunction with the Fiscal Year 2010 Federal Information
Security Management Act audit. Vulnerability testing of EPA’s Region 4 network conducted in
June 2010 identified Internet Protocol addresses with numerous high-risk and medium-risk
vulnerabilities.

We performed this audit from May through August 2010 at EPA’s Region 4 offices in Atlanta,
Georgia. We performed this audit in accordance with generally accepted government auditing
standards. These standards require that we plan and perform the audit to obtain sufficient and
appropriate evidence to provide a reasonable basis for our findings and conclusions based on the
audit objectives. We believe the evidence obtained provides a reasonable basis for our findings
and conclusions.

We conducted testing to identify the existence of commonly known vulnerabilities using a
commercially available network vulnerability assessment tool recognized by the National
Institute of Standards and Technology. We tested the Internet Protocol addresses associated with
network resources controlled by your office. We used the risk ratings provided by the

1
 A vulnerability assessment is the process of identifying, quantifying, and prioritizing (or ranking) the
vulnerabilities in a tested information system. A vulnerability assessment does not include a penetration test which
would attempt to use the identified vulnerabilities to gain further access into the tested information system.


                                                          1

                                                                                         10-P-0213 



vulnerability software to determine the level of harm a vulnerability could cause to a network
resource. We accepted the results from the software tool. The vulnerabilities identified by the
software are disclosed in the attachment. We provided the complete details of our testing results
to Agency representatives.

The estimated cost for performing these tests and compiling this report is $3,459.

Recommendations

We recommend that the Chief, Environmental Information Solutions Branch, Office of Policy
Management, Region 4:

   1.	 Provide the OIG a status update for all identified high-risk and medium-risk vulnerability
       findings contained in this report.

   2.	 Create plans of action and milestones in the Agency’s Automated Security Self-

       Evaluation and Remediation Tracking system for all vulnerabilities that cannot be 

       corrected within 30 days of this report. 


   3.	 Perform a technical vulnerability assessment test of assigned network resources within
       60 days to confirm completion of remediation activities.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 30 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates.

Due to the sensitive nature of the report’s technical findings, the full report will not be made
available to the public. However, the OIG plans to publish the unrestricted version of this report,
your response, and any corrective action plans on OIG’s Website, which is available to the
public. Therefore, we request that you provide your response to Recommendation 1 in a separate
document.

If you or your staff have any questions regarding this report, please contact Rudy Brevard at
(202) 566-0893 or brevard.rudy@epa.gov.




                                                2

                                                                                                                                        10-P-0213



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1        Action Official           Date      Amount      Amount

     1        2     Provide the OIG a status update for all identified       U         Chief, Environmental
                    high-risk and medium-risk vulnerability findings                   Information Solutions
                    contained in this report.                                         Branch, Office of Policy
                                                                                      Management, Region 4

     2        2     Create plans of action and milestones in the             U         Chief, Environmental
                    Agency’s Automated Security Self-Evaluation and                    Information Solutions
                    Remediation Tracking system for all vulnerabilities               Branch, Office of Policy
                    that cannot be corrected within 30 days of this                   Management, Region 4
                    report.

     3        2     Perform a technical vulnerability assessment test of     U         Chief, Environmental
                    assigned network resources within 60 days to                       Information Solutions
                    confirm completion of remediation activities.                     Branch, Office of Policy
                                                                                      Management, Region 4




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 3

                                                                                     10-P-0213


                                                                                 Appendix A

                                      Distribution

Office of the Administrator
Assistant Administrator of Environmental Information and Chief Information Officer
Regional Administrator, Region 4
Chief, Environmental Information Solutions Branch, Office of Policy Management, Region 4
Acting Senior Agency Information Security Officer
Acting Director, Technology and Information Security Staff
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Region 4
Inspector General




                                                4

